AUDIT OF THE CORPORATION’S PROCUREMENT AND
       TRAVEL CREDIT CARD PROGRAMS




              Audit Report No. 00-015
                   May 24, 2000




             OFFICE OF AUDITS

       OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                           Office of Audits
Washington, D.C. 20434                                                                              Office of Inspector General



   DATE:               May 24, 2000

   TO:                 Fred Selby, Director
                       Division of Finance

                       Arleas Upton Kea, Director
                       Division of Administration




   FROM:               David H. Loewenstein
                       Assistant Inspector General for Headquarters Audits

   SUBJECT:            Audit of the Corporation’s Procurement and Travel Credit Card Programs


   The Office of Inspector General (OIG) has completed a review of the Federal Deposit Insurance
   Corporation’s (FDIC) procurement credit card and travel credit card programs. The procurement
   card program is for use when goods or limited administrative services costing less than $5,000
   are acquired on behalf of FDIC in both its corporate and receivership capacities. The travel card
   is an FDIC-sponsored program for official travel expenses of FDIC employees. During the
   review we determined that the credit card servicer, Bank of America, had not been performing
   according to contract requirements. Bank of America failed to provide the FDIC detailed credit
   card data in a timely, accurate, and usable form for the first 13 months of the contract. However,
   the situation has recently improved since Bank of America began providing acceptable data that
   captures the FDIC’s travel card activities in December 1999. Prior to contracting with Bank of
   America, the FDIC was considered to be a “best practices” government agency with respect to
   credit card administration by the GSA.


   BACKGROUND

   The FDIC established separate task orders with NationsBank under a master contract through
   GSA to provide credit card services for the procurement card and the travel card beginning on
   November 30, 1998. The master contract through GSA was amended on April 30, 1999 to
   reflect a merger between NationsBank and Bank of America. However, Bank of America1 did
   not deliver services according to its contract, and GSA issued a “cure” letter to notify Bank of
   America of its failure to comply with critical master contract requirements on September 17,
   1999. Approximately 42 other government agencies have also encountered problems similar to
   those experienced by the FDIC. Along with the FDIC, these agencies, through meetings with
   GSA, identified common problems and brought them to Bank of America’s attention. The cure

   1
       All future references to Bank of America include the period of the contract that NationsBank held with the GSA.
letter instructed Bank of America to address what action would be taken to cure the deficiencies
noted in the enclosure to the letter. Failure to provide an adequate response would constitute
sufficient grounds to terminate the contract for cause. Bank of America responded to GSA on
October 4, 1999. As of December 1999, Bank of America has addressed the FDIC’s concerns;
however, they continue to work on problems affecting other agencies.

The Division of Administration (DOA) administers the procurement credit card program. The
FDIC processed almost 21,000 procurement credit card transactions for 384 cardholders totaling
approximately $5.6 million from January 1, 1998 to December 31, 1998 and $1.8 million from
January 1, 1999 to April 30, 1999.

The Division of Finance (DOF) administers the travel card program. The FDIC incurred almost
$55 million in regular duty travel costs, a considerable portion of which related to travel credit
card charges during the period of December 1998 through October 1999. The FDIC could not
determine the number of transactions and cardholders or total dollar amounts for the travel credit
card program during our review. Bank of America, the contractor responsible for providing
credit card services to the FDIC, had not provided reliable, accurate information in a form that
was useful to the FDIC for administering the travel credit card program. However, due to the
efforts of DOA and DOF staff and a cure letter that was issued by the GSA, Bank of America is
now providing acceptable data to the FDIC.

DOA and DOF monitor their charge card programs differently. DOA monitors and administers
the procurement credit card program through a separate tracking system from Bank of America’s
system. In addition, the FDIC makes payment directly to Bank of America for the procurement
card transactions. DOF, however, primarily relies on data provided by Bank of America for
monitoring and administering the travel credit card program. For travel card charges, the
employee is responsible for direct payment to Bank of America. The FDIC guidance on
administering the credit card programs is provided in section 9(E), FDIC Procurement Credit
Card Program, of the Acquisition Policy Manual and Circular 2500.3, The FDIC Sponsored
Government Travel Card Program.


OBJECTIVES, SCOPE, AND METHODOLOGY

The specific objectives of the review were to: (1) evaluate the Corporation’s internal controls over
credit card programs and (2) determine whether the credit cards are being used properly. The scope
of the review covered the periods of January 1, 1998 through April 30, 1999 for the procurement
credit card program and November 30, 1998 through October 31, 1999 for the travel credit card
program. We limited the period of review for the travel credit card to the time when FDIC initiated
the contract with Bank of America starting on November 30, 1998. We did not perform internal
control testing for the travel credit card program because Bank of America did not provide
acceptable data to the FDIC.

During our review we interviewed FDIC personnel from DOA, DOF, the Office of Internal Control
Management (OICM), DOF Financial Information Management Branch (FIMB), and Bank of
America regarding credit card program activities. We reviewed pertinent FDIC policies,



                                                 2
procedures, and directives to ensure that proper internal controls are documented. We reviewed
correspondence files, DOA and DOF task orders with Bank of America, and GSA’s master contract
for the credit card programs. We verified DOA procurement cardholder lists and obtained data from
the Financial Data Warehouse regarding the DOF travel credit card program. (The Financial Data
Warehouse is an FDIC system that provides access to financial data that has been collected through
various corporate financial and business systems). We also obtained correspondence regarding FDIC
employees with documented credit card problems. We searched the Internet for documentation of
work performed at other agencies regarding problems with Bank of America.

We did not perform tests of credit card data to confirm the adequacy of internal controls for the
DOF travel credit card program due to the lack of correct, reliable data in a useful form from Bank
of America. To obtain assurance regarding the controls in the procurement card program, we
examined all nine of DOA’s administrative compliance reviews (ACRs) performed during the
period October 1997 through September 1999. In addition, we reviewed the workpapers prepared
by DOA to ensure that proper documentation and evidence was obtained to support the results of its
review for the most recent ACR. We did not test the results of the reports or procurement
transactions since we relied on the testing performed by DOA in its ACRs. We conducted our
review from September 1999 through December 1999 in accordance with generally accepted
government auditing standards.


RESULTS OF REVIEW

Internal controls over the procurement credit card program are working effectively and,
according to DOA’s ACRs, the credit cards are being used properly. Although DOF’s internal
controls over the travel credit card program seem adequate based on our interviews and
evaluation of policies and procedures, audit tests could not be performed to verify the adequacy
of internal controls and misuse of the travel credit card due to the lack of correct, reliable data
from Bank of America during 1999. However, since December 1999, acceptable data is being
provided by Bank of America to the FDIC. DOF has just begun to perform its monthly reviews
of the data and will need to consider the cost effectiveness of reviewing all data provided by
Bank of America for the period December 1998 through December 1999.

Our review also found that the Corporation needs to re-examine its existing policy for the
reinstatement of travel credit cards. Further, DOF needs to review data supporting
approximately $32,000 that its contractor has estimated to be additional costs due to time spent
reviewing inaccurate, incorrectly formatted, and untimely data provided by the Bank of America.
Finally, DOF should perform a self-assessment of internal controls once the travel credit card
review and reporting process has been resumed.


PROCUREMENT CREDIT CARD PROGRAM IS WORKING AS INTENDED

The internal controls over the procurement credit card process are working effectively based on
our interviews and evaluation of policies and procedures for the procurement credit card
program. The policies and procedures were well documented and the process for administering



                                                 3
the program is in accordance with those guidelines. Internal controls included separation of
duties and independent verification of transactions during the process to ensure the accuracy of
data.

DOA performs periodic ACRs at FDIC offices and divisions in Washington and field locations.
DOA examines 100 percent of the procurement transactions for each review it performs. The ACRs
include steps to ensure compliance with procurement policies and procedures and verify that all
transactions are tracked. The nine ACRs in our sample revealed that according to DOA, cardholders
were in compliance with established DOA policies and guidelines for credit card usage and no major
findings or systemic problems were detected. For example, DOA found minor instances of
employees splitting purchases to comply with the purchasing limits placed on their accounts. In
response, DOA admonished the employees and, where necessary, recommended remedies such as
raising the limits on purchasers’ accounts to accommodate purchasing requirements. In addition,
DOA raised the limit for individual purchases from $2,500 to $5,000 to reflect legitimate increases in
procurement needs.

Based on our examination of the nine reviews performed by DOA from October 1997 to September
1999, the reviews were well documented, thorough, and reliable. In addition, we interviewed DOA
staff responsible for these reviews, and we reviewed the workpapers prepared by DOA to ensure that
proper documentation and evidence was obtained to support the results of their most recent ACR.
We did not test the results of the ACR reports or procurement transactions since we relied on the
testing performed by DOA in its ACR.


CONTRACTOR’S NONPERFORMANCE LIMITS THE FDIC’S ABILITY TO
ADMINISTER THE TRAVEL CARD PROGRAM

Internal controls are well documented for the travel credit card program based on our interviews
and evaluation of policies and procedures. However, we could not fully assess their
effectiveness because Bank of America had not provided data to the FDIC according to the
contract. Prescribed internal controls include separation of duties, verification of the accuracy of
data, and identification of misuse and delinquency of accounts through monthly reviews.
However, due to Bank of America’s failure to provide timely, accurate data in a usable form,
these controls could not be properly administered by DOF. Prior to contracting with Bank of
America, the FDIC was considered to be a “best practices” government agency by the GSA with
respect to credit card administration. At that time, DOF was able to provide the GSA with
information regarding the results of the FDIC’s travel credit card program.

DOF worked with Bank of America throughout the contract period to resolve data issues, and, as
part of that effort, FDIC changed the software used to manage travel credit card data to
accommodate Bank of America. FDIC also spent time identifying incorrect data in the files
provided by Bank of America, working out discrepancies in file layouts, and changing data set
naming conventions. In addition, Bank of America frequently missed deadlines to provide
needed data to the FDIC. As of December 1999, however, these issues had been resolved, and
Bank of America is now providing timely and accurate data.




                                                 4
With regard to misuse of the travel credit card by employees, DOF had not been able to review data
and provide information to FDIC management in divisions and offices for the period December
1998 through December 1999. Prior to the contract with Bank of America, DOF performed
monthly control tests that included checking the account status report for accuracy and updating,
reviewing the activity report for improper charges, reviewing delinquency reports to verify their
accuracy, and reviewing the ATM activity report for unusual activity. The amount of misuse during
the period December 1998 through December 1999 is unknown, although Bank of America has
begun providing data to the FDIC regarding delinquent accounts. During the contract period with
Bank of America, there have been instances of employees admitting to misuse of the credit cards
and, as a result, their cards have been cancelled by DOF. However, other employees who may have
misused their cards have not had the card cancelled because DOF was not receiving reports of
misuse from Bank of America. According to DOF, Bank of America has provided information for
the period December 1998 through December 1999 and DOF has begun a review of the data and
resumed its monthly reviews.

The FDIC spent funds for a contractor to review data provided by Bank of America. This
contractor estimated that the FDIC incurred over $32,000 in additional costs due to time spent
reviewing inaccurate, incorrectly formatted, and untimely data from the inception of the contract
through December 1999. Since the inception of the contract with Bank of America, the FDIC
has been working with the Bank of America and GSA to get accurate, timely, and correctly
formatted credit card information. Representatives of the Bank of America admitted that they
had not provided adequate information for the FDIC to administer its travel card program
effectively. GSA requested that affected government agencies provide expenditure data to them
so that GSA might recover amounts from Bank of America for failing to meet contract
requirements. FDIC’s expenditure data will support the GSA and other government agencies’
efforts to compel Bank of America to perform its duties as contracted.


REINSTATEMENT POLICY NEEDS TO BE RE-EVALUATED

DOF indicated that there are instances where an employee’s travel credit card is reinstated even
though DOF does not receive a proper explanation from the employee for the cancellation.
Often the request is made for immediate reinstatement because an employee is required to travel
for business reasons by its respective office. Prior to the contract with Bank of America, DOF
indicated that it reinstated an average of three or four accounts in a 1-month period. During the
scope of our survey, DOF personnel stated they had been reinstating about three to four accounts
every week. According to FDIC policy, if a card is to be reinstated, the following should occur:
all balances must be paid in full; reinstatement must be requested in writing, and the cardholder
must state why the card was cancelled; and written concurrence must be obtained by the division
or office director. DOF then reviews the request and asks the card contractor to reinstate the
credit card if a decision to reinstate is made. Though these policies must be followed to
reinstate an employee, they do not address for how long a period a credit card should be
cancelled. It does not appear that the policy to cancel cards due to delinquency or misuse serves
the purpose of deterring employees from delinquency or misuse when reinstatement is often
occurring soon after cancellation.




                                                5
DOF estimates that it reinstated approximately 29 percent of all cards cancelled due to misuse
and delinquency soon after the cards were cancelled during the time that Bank of America has
provided services to the FDIC. During the period December 1998 through November 1999,
approximately 51 of 173 cancelled traveler’s credit cards were reinstated within 1 week of
cancellation. Also, the total number of delinquencies has increased from 7 to 10 a month to 10 to
15 a month for the same period.


CONCLUSIONS AND RECOMMENDATIONS

DOF should review the data that supports the $32,000 estimate calculated by the FDIC
contractor responsible for reviewing Bank of America data and provide it to the GSA. This will
support the GSA and other government agencies’ efforts to compel Bank of America to perform
its duties as contracted. In addition, DOF should reevaluate the policy regarding cancellation
and reinstatement of the travel credit card. It does not appear that the policy to cancel cards due
to delinquency or misuse serves the purpose of deterring employees from delinquency or misuse
when reinstatement is occurring soon after cancellation. Instead, DOF may wish to consider
prohibiting use of the card for certain periods of time after cancellation before reinstating
cardholders that misuse the card or are delinquent in making payments. Further, DOF should
consider the time and effort required to perform reviews of the data for the period December
1998 through December 1999 for misuse and the related costs against the benefits that may be
obtained from such reviews. DOF should take into account the fact that many accounts that had
been cancelled due to delinquency or misuse have been reinstated in short periods of time,
effectively nullifying the cancellation. Canceling any other accounts due to a review of the data
for the period December 1998 through December 1999 will not be effective if reinstatement
occurs soon afterward. Finally, we were unable to perform internal control testing for the travel
credit card program due to Bank of America’s failure to provide acceptable data to the FDIC.
We therefore believe that DOF should perform a self-assessment of internal controls related to
the travel card program now that data provided by Bank of America is acceptable and the travel
credit card review and reporting process is back in place to ensure that prescribed controls are in
place and operating effectively.

Accordingly, we recommend that the Director of DOF:

       (1) Review the data supporting the $32,000 estimated by the FDIC contractor responsible
           for reviewing Bank of America data and provide this information to the GSA to
           support its efforts to compel Bank of America to perform according to the master
           contract.

       (2) Review the current policy regarding the cancellation and reinstatement of credit cards to
           determine whether it is having its intended effect, and revise the policy accordingly.

       (3) Determine whether performing DOF’s scheduled monthly reviews on the recently
           obtained data for the period December 1998 through December 1999 would be cost
           effective, and proceed accordingly.




                                                 6
       (4) Perform a self-assessment of internal controls related to the travel card program when
           data provided by Bank of America is acceptable and the travel credit card review and
           reporting processes have been resumed.


CORPORATION COMMENTS AND OIG EVALUATION

On April 3, 2000, the Director of DOF, provided a written response to the recommendations in
the draft report. DOF’s response is presented in Appendix I of this report. The Director’s
response agreed with all recommendations to the draft report. However, recommendation 2 will
need to be approved by the National Treasury Employees Union (NTEU). Although no
recommendations were addressed specifically to DOA, we received a response from DOA to the
draft report. DOA’s response is presented in Appendix II of this report.

A summary of the Director’s response to recommendations 2 and 3 and our analysis follows.
The response to recommendations 1 and 3 is not summarized because the actions planned or
completed are identical to those recommended. Appendix III presents management’s proposed
action on our recommendations and shows that there is a management decision for each
recommendation in this report.

Review the current policy regarding the cancellation and reinstatement of credit cards to
determine whether it is having its intended effect, and revise the policy accordingly
(recommendation 2): The Director, DOF, stated that DOF has recently reviewed the policy
regarding cancellation and reinstatement of travel charge cards. This review was prompted
primarily by an awareness of inconsistencies among the various FDIC divisions and offices as to
how much time, if any, an employee must wait before requesting reinstatement into the travel
charge card program. For example, certain FDIC divisions require canceled employees to wait 6
months before requesting reinstatement. Other divisions allow their employees to request
reinstatement almost immediately following cancellation. In an effort to bring more equity and
consistency to this policy, the following policy will be proposed to the FDIC, Labor and
Employee Relations Branch (LERB) and the NTEU for review.

An employee whose card has been cancelled due to delinquency or misuse may apply for
reinstatement if the employee meets the criteria listed below:

•   Three months has elapsed since the first cancellation due to delinquency or misuse;
•   Six months has elapsed since the second cancellation due to delinquency or misuse;
•   Twenty-four months has elapsed since the third cancellation due to delinquency or misuse.

If cancellation occurs for a fourth time due to delinquency or misuse, this will render the
employee ineligible for reinstatement into the program. While in cancellation status, employees
will not be permitted to use the FDIC Corporate account to charge airline tickets at the
government contract airfare.

DOF also stated that such policy changes must be negotiated with the NTEU. DOF will propose
changes to the policy with NTEU and will attempt to make the changes effective July 1, 2000.


                                                 7
We agree with DOF and the proposed policy changes. To avoid the appearance that certain
individuals receive preferential treatment, we believe that each FDIC division and office must
adhere to the same policy for cancellation and reinstatement when an FDIC employee is
delinquent or misuses the travel card. Setting specific timeframes that an employee must wait
for reinstatement will ensure that all individuals are treated alike. The action taken by DOF is
responsive to our recommendation and meets the requirements of a management decision.
However, we request that DOF provide us a copy of the revised policy for reinstatement when it
is approved by the NTEU.

Determine whether performing DOF’s scheduled monthly reviews on the recently obtained
past 13 months of data would be cost effective, and proceed accordingly (recommendation 3):
The Director of DOF stated that the issue of whether or not it would be cost effective to review 13
months of charge card data has been discussed at length within DOF. DOF does share the OIG’s
concern regarding the cost effectiveness of such an undertaking. However, discussions with FDIC’s
LERB have resulted in the decision to distribute and review the 13 months of retail charge reports in
question. These discussions highlighted the importance of the consistent handling of employees in
similar situations throughout the life of the travel charge card program. Therefore, in the interest of
treating all employees equally under the travel charge card program, the decision was made to
review all 13 months of reports.

We agree with DOF and the decision to review 13 months of reports for misuse. DOF considered
the cost of performing this review; however, the LERB had concerns about the importance of
consistent handling of employees in similar situations. Treating employees equally is one of the
FDIC’s primary goals. In addition, the cost of a potential lawsuit by an FDIC employee who might
have been treated unfairly could be greater than the cost of the review. The action taken by DOF is
responsive to our recommendation and meets the requirements of a management decision.




                                                  8
                                                                                        APPENDIX I
Federal Deposit Insurance Corporation                                                          Office of the Director
801 - 17th Street, NW, Washington, DC 20434                                                    Division of Finance



DATE:                                    April 3, 2000

MEMORANDUM TO:                           David H. Lowenstein
                                         Assistant Inspector General for Headquarters Audits




FROM:                                    Fred Selby
                                         Director, Division of Finance

SUBJECT:                                 Management Response to Draft Report: Review of the
                                         Corporation’s Charge Card Programs


The Division of Finance, (DOF) has completed its review of the draft report issued by the Office of the
Inspector General (OIG), entitled “Review of the Corporation’s Charge Card Programs.” DOF
appreciates the review performed by the OIG and has the following comments with respect to the
recommendations contained within the draft report.

1) DOF will review the data supporting the $32,000 estimate provided by the Division of Information
   and Resource Management contractor responsible for reviewing the data contained in the interface
   files provided by Bank of America. DOF will then work with the Acquisition Services Branch,
   Division of Administration, to draft a letter to the General Services Administration (GSA) to support
   its efforts to compel Bank of America to perform according to the terms of the master contract. A
   copy of the letter will be provided to the OIG. The expected completion date for this action is May
   31, 2000.

2) DOF has recently reviewed the policy regarding the cancellation and reinstatement of travel charge
   cards. This review was prompted primarily by an awareness of inconsistencies among the various
   FDIC divisions and offices as to how much time, if any, an employee must wait before requesting
   reinstatement into the Travel Charge Card Program. For example, certain FDIC divisions require
   canceled employees to wait six (6) months before requesting reinstatement. Other divisions allow
   their employees to request reinstatement almost immediately following cancellation. In an effort to
   bring more equity and consistency to this policy, the following policy will be proposed to FDIC,
   LERB and the NTEU for review.

     An employee whose card has been canceled due to delinquency or misuse may apply for
     reinstatement if they meet the criteria listed below:

     •    Three (3) months has elapsed since the first cancellation due to delinquency or misuse;

     •    Six (6) months has elapsed since the second cancellation due to delinquency or misuse;

     •    Twenty-four (24) months has elapsed since the third cancellation due to delinquency or misuse.

     If cancellation occurs for a fourth time due to delinquency or misuse, this will render the employee
     ineligible for reinstatement into the program. While in cancellation status, employees will NOT be


                                                            9
    permitted to use the FDIC Corporate Account to charge airline tickets at the government contract
    airfare.

    Unfortunately, DOF cannot unilaterally make the above changes in policy. Such a policy change
    must be negotiated with the NTEU. Therefore, DOF cannot guarantee that these changes will, in fact
    be implemented. However, when negotiating with NTEU for these changes, an effective date of July
    1, 2000 will be requested by DOF.

3) The issue of whether or not it would be cost effective to review 13 months of charge card data has
   been discussed at length within DOF. DOF does share the OIG’s concern regarding the cost
   effectiveness of such an undertaking. However, discussions with FDIC, LERB have resulted in the
   decision to distribute and review the 13 months of retail charge reports in question. These discussions
   highlighted the importance of the consistent handling of employees in similar situations throughout
   the life of the Travel Charge Card Program. Therefore, in the interest of treating all employees
   equally under the Travel Charge Card Program, the decision was made to review all 13 months of
   reports. Given the amount of work involved in the review of these reports, the estimated time for
   completion of this task is June 16, 2000.

4) DOF will complete a self assessment of internal controls related to the Travel Charge Card Program.
   In order to allow time for the backlog of reports to be reviewed and for normal operations to resume
   and remain in place for a few months, DOF proposes a completion date of September 20, 2000 for the
   self assessment.

Questions regarding this response may be directed to Stanley J. Pawlowski, Audit Liaison for the
Division of Finance. Mr. Pawlowski may be reached at (202) 416-7343.

cc: Arleas Upton Kea
    Connie Brindle
    Sally Rinaldi
    Stan Pawlowski




                                                   10
                                                                                APPENDIX II
         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                  Division of Administration




MEMORANDUM TO:                    David H. Lowenstein
                                  Assistant Inspector General for Headquarters Audits


FROM:                             Arleas Upton Kea
                                  Director, Division of Administration

SUBJECT:                          Management Response to Draft Report: Review of the
                                  Corporation’s Credit Card Programs

The Division of Administration (DOA) has completed its review of the draft report issued by the
Office of the Inspector General (OIG) entitled Review of the Corporation’s Credit Card
Programs. DOA appreciates the review performed by the OIG. Since the draft report contained
no recommendations specific to DOA, we have no comments.

If you have any questions regarding the response, our point of contact for this matter is Andrew
O. Nickle, Audit Liaison for the Division of Administration. Mr. Nickle can be reached at (202)
942-3190.

cc:    Vijay Deshpande
       Fred Selby




                                                     11
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.




                                                                      12
                                                                                                                    Documentation
                                                                                                        Expected      That Will                      Management
 Rec.                                                                                                  Completion   Confirm Final         Monetary   Decision: Yes
Number                     Corrective Action: Taken or Planned/Status                                     Date         Action             Benefits      or No
         The Director, DOF, stated that DOF will review the data supporting the $32,000
         estimate provided by the Division of Information and Resource Management contractor
         responsible for reviewing the data contained in the interface files provided by Bank of                       Letter to the
  1                                                                                                    05/31/2000                           N/A          Yes
         America. DOF will then work with the Acquisition Services Branch, DOA, to draft a                                GSA.
         letter to the General Services Administration (GSA) to support its efforts to compel
         Bank of America to perform according to the terms of the master contract.
         The Director, DOF, stated that DOF has recently reviewed the policy regarding
         cancellation and reinstatement of travel charge cards. This review was prompted
         primarily by an awareness of inconsistencies among the various FDIC divisions and
         offices as to how much time, if any, an employee must wait before requesting
                                                                                                                      Revised policy
         reinstatement into the travel charge card program. For example, certain FDIC divisions
                                                                                                                    for cancellation of
  2      require canceled employees to request reinstatement almost immediately following               07/1/2000                           N/A          Yes
                                                                                                                     the travel charge
         cancellation. In an effort to bring more equity and consistency to this policy, DOF will
                                                                                                                      card program.
         propose changes to the policy. However, DOF cannot unilaterally make changes to the
         policy. Such changes must be negotiated with the National Treasury Employees Union
         (NTEU). DOF will propose changes to the policy with NTEU and will attempt to make
         the changes effective July 1, 2000.
         The Director, DOF, stated that the issue of whether or not it would be cost effective to
         review 13 months of charge card data has been discussed at length within DOF. DOF
         does share the OIG’s concern regarding the cost effectiveness of such an undertaking.                          Completed
         However, discussions with FDIC’s Labor and Employee Relations Branch have                                     review of 13
  3      resulted in the decision to distribute and review the 13 months of retail charge reports in   06/16/2000   months of reports       N/A          Yes
         question. These discussions highlighted the importance of the consistent handling of                       provided by Bank
         employees in similar situations throughout the life of the travel charge card program.                        of America.
         Therefore, in the interest of treating all employees equally under the travel charge card
         program, the decision was made to review all 13 months of reports.
         The Director, DOF, stated that DOF would complete a self-assessment of internal
         controls related to the travel charge card program. In order to allow time for the                             Completed
  4      backlog of reports to be reviewed and for normal operations to resume and remain in           09/20/2000    Internal Control       N/A          Yes
         place for a few months, DOF proposes a completion date of September 20, 2000 for the                            Review.
         self-assessment.




                                                                                     13
